                                  EVALUATION




 BUREAU OF RECLAMATION’S
 SUSTAINABLE WATER MANAGEMENT
 PROGRAMS AND ACTIVITIES




Report No.: WR-EV-BOR-0026-2013   September 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                          SEP 3'" 0''2014
Memorandum

To:            Lowell Pimley
               Acting Commissioner, Bureau of Reclamation

From:          Kimberly Elmore ~~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Final Evaluation Report- Bureau of Reclamation's Sustainable Water
               Management Programs and Activities
               Report No. WR-EV-BOR-0026-2013

        This memorandum transmits the results of our evaluation of the Bureau of Reclamation's
(USBR) sustainable water management programs and activities. We evaluated three financial
assistance programs under the WaterSMART (Sustain and Manage America's Resources for
Tomorrow) Program: Water and Energy Efficiency Grants, Water Conservation Field Service
Program grants, and cooperative agreements under the Title XVI Water Reclamation and Reuse
program.

        Overall, we found that USBR manages these financial assistance programs well, but it
should take additional steps to improve its management of the WaterS MART Program to ensure
transparency and fairness in its financial assistance programs. Our evaluation identified an
overlap in grants awarded by two of the financial assistance programs, determined that one
financial assistance program has no guidance on the maximum funding limitations of grant
awards, and found ineligible costs totaling $18,404.67. We offer six recommendations that we
believe, if implemented, will help improve USBR' s role in managing the WaterS MART
Program.

        Based on USBR's September 24, 2014 response to the draft report, we consider
recommendation 5 to be resolved and implemented, and recommendations 1, 2, 3, 4, and 6 to be
resolved but not implemented. We will refer recommendations 1, 2, 3, 4, and 6 to the Office of
Policy, Management and Budget to track implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please contact me at 202-208-5745.




                        Office of Audits, Inspections, and Evaluations I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3
     WaterSMART Programs and Funding ............................................................ 3
      Selecting and Awarding Financial Assistance Agreements ............................ 4
      Calculating Water Savings .............................................................................. 5
Findings................................................................................................................... 6
 Overlap Between WEEG and WCFSP Grants .................................................... 6
 WCFSP Guidance on Funding Limitations is Inadequate .................................. 6
 Documenting Analysis of Reported Acre-Feet ................................................... 7
  Final Performance Reports .................................................................................. 8
  Cost-Share Requirements .................................................................................... 9
  Grant Classification ............................................................................................. 9
Conclusion and Recommendations ........................................................................11
 Conclusion......................................................................................................... 11
 Recommendations Summary............................................................................. 11
Appendix 1: Scope and Methodology................................................................... 13
 Scope ................................................................................................................. 13
 Methodology ..................................................................................................... 13
Appendix 2: Prior Report Coverage ..................................................................... 15
Appendix 3: Schedule of Potential Monetary Impact ........................................... 16
Appendix 4: U.S. Bureau of Reclamation Response ............................................ 17
Appendix 5: Status of Recommendations ............................................................. 22
Results in Brief
The Bureau of Reclamation (USBR) plays a crucial role in helping the Nation
manage and sustain the current supply of fresh water in rivers, lakes, aquifers, and
other sources, and preserve a healthy ecosystem to ensure supplies for the future.
USBR’s WaterSMART (Sustain and Manage America’s Resources for
Tomorrow) Program provides scientific knowledge and financial support to help
water management agencies efficiently meet their responsibilities of balancing
current supplies with the demand to develop new ones.

To evaluate USBR’s management of sustainable water programs and activities,
we reviewed three financial assistance programs under the WaterSMART
Program. We reviewed Water and Energy Efficiency Grants, Water Conservation
Field Service Program grants, and cooperative agreements under the Title XVI
Water Reclamation and Reuse Program.

We found that, overall, USBR manages the WaterSMART Program well, but we
identified several areas in which USBR could improve WaterSMART to ensure
transparency and fairness in its financial assistance programs:

   •   We found that the water and energy efficiency grants and the water
       conservation field service grants were awarded for the same water use
       efficiency activities, creating an overlap between the two grant programs
       and creating an appearance that grantees received funds from different
       programs to complete the same or similar tasks.
   •   We found that the water conservation field service program does not have
       definitive guidance on funding limitations, causing the maximum funding
       amount of awards to be unclear and creating the potential for concerns
       about fairness to grant applicants.
   •   We found that USBR does not thoroughly document its financial
       assistance program grant files to include adequate analysis and verification
       of water savings.
   •   We identified two instances in which grantees did not submit the required
       information on their final performance reports to USBR.
   •   We identified $18,404.67 in ineligible costs resulting from a water
       conservation field service program grantee that did not meet cost-share
       requirements.
   •   We found that USBR uses the WaterSMART Program’s Catalog of
       Federal Domestic Assistance number for water conservation activities that
       are not part of the WaterSMART Program.

In March 2014, we issued four Notices of Potential Findings and
Recommendations to USBR’s Denver Office and one to USBR’s Upper Colorado
Regional Office reporting many of the findings detailed in this report. USBR
generally concurred with our findings and recommendations and has begun


                                                                                   1
addressing some of the issues. We offer six recommendations in this report that
we believe, if implemented, will help USBR improve its management of the
WaterSMART Program.




                                                                                  2
Introduction
Objective
We reviewed financial assistance awarded to three WaterSMART (Sustain and
Manage America’s Resources for Tomorrow) programs in fiscal years 2011
through 2013 to evaluate the Bureau of Reclamation’s (USBR) management of
sustainable water management programs and activities. Specifically, we reviewed
the selection, award, monitoring and accomplishments of Water and Energy
Efficiency Grants (WEEG), the Title XVI Water Reclamation and Reuse program
(Title XVI), and the Water Conservation Field Service Program (WCFSP).
Appendix 1 details the full scope and methodology of this report.

Background
USBR reported that the Nation faces increasing water resource challenges. Aging
infrastructure, rapid population growth, depleting groundwater resources,
impaired water quality, increased human and environmental uses, and climate
change all play a role in determining the amount of fresh water available at any
given place and time. Water shortages and water-use conflicts have become more
commonplace in many areas of the United States.

To meet these challenges, Congress passed the SECURE (Science and
Engineering to Comprehensively Understand and Responsibly Enhance) Water
Act of 2009, which directed the U.S. Department of the Interior (DOI) to develop
a sustainable water management policy. In February 2010, the Secretary of the
Interior issued Secretarial Order No. 3297, implementing the SECURE Water Act
by establishing the WaterSMART Program to work with States, tribes, local
governments, and nongovernmental organizations to secure and stretch water
supplies for use by existing and future generations to benefit people, the economy,
and the environment.

USBR plays a key role in the WaterSMART Program as DOI’s main water
management agency. Focused on improving water conservation and helping water
resource managers make wise decisions, USBR administers grants, cooperative
agreements, scientific studies, technical assistance, and scientific expertise in
support of the WaterSMART Program.

WaterSMART Programs and Funding
The WaterSMART Program combined existing water conservation programs,
including Title XVI, WCFSP, the Cooperative Watershed Management Program,
and Basin Studies with new initiatives, to include WaterSMART grants (WEEG is
included in the WaterSMART grants).

The types of projects funded through WaterSMART’s financial assistance
agreements cover agricultural, municipal, and industrial waters. For example,
WEEG provides funding for projects that conserve and use water more efficiently,


                                                                                 3
protect endangered and threatened species, facilitate water markets, or carry out
other activities to address climate-related impacts on water or prevent any water-
related crisis or conflict. WCFSP provides funding for water management
planning, implementation of efficiency measures, and demonstration projects.
Title XVI awards cooperative agreements for water reuse projects that reclaim
and reuse municipal, industrial, domestic, or agricultural wastewater. Reclaimed
water from these projects can be used for a variety of purposes, such as
environmental restoration, fish and wildlife, ground water recharge, power
generation, or recreation.

During fiscal years 2011 through 2013, USBR awarded 383 financial assistance
agreements: 170 to WEEG, 167 to WCFSP, and 46 to Title XVI. The
WaterSMART Program received funding of $52.2 million in fiscal year 2013 (see
Figure 1).




Figure 1. Breakdown of Federal funding awarded to the WaterSMART Program in fiscal year
2013.

Selecting and Awarding Financial Assistance Agreements
The selection process involves an initial screening, an Application Review
Committee (ARC) review and ranking, and a red-flag review. The funding
opportunity announcement (FOA) grants officer completes the initial screening
and reviews all applications to assess an applicant’s eligibility and the non-
Federal cost share and to ensure the application meets FOA requirements.


                                                                                      4
Eligibility requirements vary by program but generally, an applicant must be a
State, Indian tribe, irrigation district, water district, or other organization with
water or power delivery authority located in the Western United States or the
United States territories. The FOA grants officer then forwards the accepted
applications, which could include components of water conservation, energy, or
water recycling, to the ARC for further review and consideration. The ARC,
which is generally composed of USBR staff with expertise specific to information
on the application, reviews and ranks applications submitted. Finally, USBR
offices complete the red-flag review by reviewing the top-ranked applications and
identifying any reasons a proposed project would not be feasible or otherwise
advisable. In addition, during this review, USBR staff addresses any specific
concerns or questions raised by the ARC, and conducts a preliminary budget
review to evaluate the applicant’s ability to meet cost-share requirements, which
is the applicant’s responsibility to cover 50 percent or more of project costs.

The selection criteria differ for each program, and are outlined in each program’s
FOA. USBR’s Denver Office manages all pre-award activities for WEEG and
Title XVI, and once a recipient is selected, the appropriate regional office
assumes responsibility for managing and monitoring the activities. Unlike WEEG
and Title XVI, WCFSP grants are awarded, managed, and monitored at the
regional office level and in some cases at the field office level. Of USBR’s five
regions, only three regional offices award WCFSP grants, which are the Upper
Colorado, Lower Colorado, and the Great Plains regions. The Mid-Pacific and
Pacific Northwest regions stopped awarding WCFSP grants after fiscal year 2011
and 2012, respectively.

Calculating Water Savings
Each year, USBR reports the water savings expected to result from water
conservation activities funded that year. Water savings for each funded project are
based on estimates of the number of acre-feet of water expected to be conserved
annually once the project becomes operational. One acre-foot of water provides
the annual needs of one or two households.

Beginning in 2010, DOI established a series of outcome-based performance goals
to help focus on key initiatives. One of the five goals DOI identified as a high
priority for fiscal years 2010 and 2011 was water conservation. The goal was to
increase the available water supply up to 350,000 acre-feet by the end of fiscal
year 2011 through USBR programs. For fiscal years 2012 and 2013, DOI
extended the goal to increase the available water supply to 730,000 acre-feet by
the end of fiscal year 2013. According to USBR officials, DOI achieved its goal
by estimating water savings from the three WaterSMART programs we
reviewed—WEEG, WCFSP, and Title XVI—which contributed approximately
657,000 acre-feet to the overall goal. The remainder of the goal was met with
savings from non-WaterSMART programs.




                                                                                   5
Findings
Overlap Between WEEG and WCFSP Grants
During our evaluation, we identified three cases in which grant recipients received
overlapping funding from WEEG and WCFSP. In each case, the grantee received
funds from both programs in the same fiscal year for different phases of the same
projects. For example, we reviewed a WEEG grant and WCFSP grant awarded to
the Arch Hurley Conservancy District in fiscal year 2011. USBR awarded both
grants for the application of sodium bentonite to different parts of a canal, which
is a natural sealant that provides a bond with the soil to create an impenetrable
liner in the soil. We also reviewed a WEEG grant and a WCFSP grant awarded to
the Florida Farmers Ditch Company that were both provided for lining different
parts of a canal. In the third case, we reviewed a WEEG grant and a WCFSP grant
awarded to the Southern Nevada Water Authority to support the water authority’s
landscape rebate program.

While neither WEEG nor WCFSP guidelines preclude these types of water-use
efficiency activities, these awards created an appearance that grantees were
“double dipping” to obtain funds from different programs to complete similar
tasks. While both WEEG and WCFSP have established criteria for the type of
water-use efficiency activities they can fund, an overlap exists because both
programs award funding for similar activities.

In an era of increased U.S. Government transparency, we believe it is important
that USBR ensure grant decisions are fair, clear, and equitably awarded among
applicants.

 Recommendation

 We recommend that USBR:

    1. Develop and implement policy and procedures to differentiate
       between WEEG and WCFSP grants awarded in support of water-use
       efficiency activities.


WCFSP Guidance on Funding Limitations is
Inadequate
USBR awards WCFSP grants for the purpose of water conservation planning and
efficiency improvements. Grant applicants compete within their region or area for
financial assistance. The documents we reviewed at three USBR regions provided
no clear guidance for USBR staff to follow regarding the maximum award
amount of WCFSP grants.



                                                                                  6
In May 2009, USBR issued bureauwide guidance for fiscal year 2010 WCFSP
funding opportunity announcements. The memorandum instructed the regions to
limit WCFSP awards to no more than $100,000 per agreement; however, it did
not establish criteria for the WCFSP grants awarded after this time. The
memorandum stated that USBR planned to incorporate the guidance into the
Reclamation Manual Directives and Standards for WCFSP grants, but our review
found that this was not done.

In addition to the May 2009 guidance, we found two other documents that
discussed the existence of a $100,000 grant award limit. In October 2012, USBR
issued “WaterSMART A Three-Year Progress Report.” The progress report states
the WCFSP grant awards are limited to $100,000. USBR’s 2012 budget
justifications also stated that WCFSP grant awards are generally limited to
$100,000 per project.

The grant files that we reviewed, however, reflect that the Regional offices are not
adhering to the $100,000 award limit and that USBR’s guidance is therefore
inadequate. We identified four instances in which the initial grant award exceeded
$100,000 or grant modifications were made that increased the award total to more
than $100,000. For example, we found that the initial WCFSP grant awarded to
the Pelger Mutual Water Company totaled $129,000. Another example was a
$100,000 WCFSP grant to Arch Hurley Conservancy District that was modified
just 1 month later to add an additional $100,000, for a total award amount of
$200,000.

 Recommendation

 We recommend that USBR:

    2. Establish and implement definitive guidance on WCFSP funding
       limitations, including a process for increasing funding through grant
       modifications.


Documenting Analysis of Reported Acre-Feet
USBR is responsible for meeting and reporting on DOI’s goal to increase the
available water supply through water conservation programs. The WaterSMART
Program is USBR’s primary method for supporting the goal by awarding grants
for water conservation projects and reporting to the Secretary the estimated acre-
feet of water conserved through each program.

A USBR official told us they review applicants’ estimates of water conservation
during the pre-award phase through the ARC and “red-flag” review process,
rather than verifying actual amounts of water conserved. We found, however, that
USBR’s financial assistance files did not document the steps USBR took to



                                                                                     7
analyze and verify that grant recipients’ estimates of acre-feet of water conserved
were reasonable and supported.

USBR officials informed us they have recently begun performing technical
analysis on a limited number of WaterSMART grant projects each year—both
before and after construction on the project—as part of their efforts to certify and
verify water savings reported toward DOI’s conservation goal. We acknowledge
the action USBR has taken to improve this process.

 Recommendation

 We recommend that USBR:

     3. Require clear documentation regarding the analysis conducted for
        acre-feet of water conserved prior to awarding grants, and ensure
        that the resulting determination is adequately documented in both the
        selection files and in the individual financial assistance agreements.


Final Performance Reports
USBR requires a final performance report from all recipients of a financial
assistance agreement. At the conclusion of the agreement, a recipient must
prepare a final performance report that contains a brief comparison of actual
accomplishments with the goals and objectives provided in the application. We
found that final performance reports generally captured the overall
accomplishments of USBR’s financial assistance agreements. Of the 35 financial
assistance agreements we reviewed that had final performance reports, we
identified two agreements for WCFSP grants that did not provide information
about the overall grant accomplishments.

In addition, we found that the funding opportunity announcements for awards
made under the WEEG program require final performance reports to include a
discussion of whether the grantee met project objectives and goals, the amount of
water conserved, and, if applicable, information and calculations supporting the
amount of water conserved. WCFSP awards do not require grantees to report this
information.

The two final performance reports that we reviewed for WCFSP grants did not
include the overall accomplishments resulting from work performed under the
grant. In addition, neither report included details about the amount of water
conserved or the acre-feet saved even though both grants have acre-feet counted
toward DOI’s conservation goal.




                                                                                   8
 Recommendation

 We recommend that USBR:

    4. Ensure WCFSP grant final performance reports capture the project
       objectives, goals, and accomplishments and, if applicable, require a
       discussion of the amount of water conserved.


Cost-Share Requirements
All three of the financial assistance programs we reviewed had a cost-share
requirement, meaning that a recipient of a financial assistance award must be
capable of sharing at least 50 percent or more of the total project costs with the
Federal Government. WEEG and WCFSP include a 50 percent cost-share
requirement, while Title XVI has a 75 percent cost-share requirement. Our review
of cost-share requirements was limited to reviewing the final financial reports
submitted by grantees. We did not conduct an audit of the claimed costs.

Of the 76 financial assistance agreements we reviewed, we determined that grants
under these programs generally met the cost-share requirements, but we did
identify one WCFSP grant that did not meet the requirements.

In September 2011, USBR’s Mid Pacific Region awarded a WCFSP grant for
$70,000 to the City of Roseville, CA, to replace high-flush toilets with high-
efficiency toilets and to retrofit inefficient irrigation technology with more
efficient technology in commercial landscapes. The final financial report
submitted at the conclusion of the agreement stated that USBR paid $51,246 and
the City of Roseville paid $32,841. Thus, the grantee did not meet the 50 percent
cost-sharing requirement, resulting in $18,405 of ineligible costs.

 Recommendation

 We recommend that USBR Mid Pacific Regional Director:

    5. Resolve the ineligible costs of $18,405 for the WCFSP grant awarded
       to the City of Roseville.


Grant Classification
All Federal programs, projects, services, and activities that provide assistance or
benefits to the American public have a Catalog of Financial Domestic Assistance
(CFDA) number to help identify and report on those activities. A USBR official
told us that USBR has over 50 catalog numbers, the highest in DOI.




                                                                                      9
During our evaluation, we identified a Bay Delta Restoration Program (CALFED)
grant for water-use efficiency that had not been cataloged with other CALFED
grants under the CFDA number 15.533, the CALFED Bay-Delta Program.
Instead, this grant was cataloged under number 15.507, the WaterSMART
Program.

We know that the CFDA number for the WaterSMART Program has existed for
quite some time and was used for previous water programs. USBR officials also
told us that the statutory authority used for WaterSMART grants can be used for
other grants. Based on this information, we understand why USBR classified the
CALFED grant for water-use efficiency under the CFDA number for the
WaterSMART Program. We believe, however, that this makes it more difficult
for USBR to accurately report activities associated with each water program
grant.

In response to our Notice of Potential Findings and Recommendations regarding
CFDA numbers, USBR acknowledged the need to revise the CFDA number for
CALFED and is currently in the process of finalizing the fiscal year 2014 CFDA
updates for submission to DOI’s Office of Acquisition and Property Management.

 Recommendation

 We recommend that USBR:

    6. Expand the definition of grant activities conducted under the CFDA
       number for CALFED to include all CALFED water use and efficiency
       grant activities.




                                                                              10
Conclusion and Recommendations
Conclusion
Water is the lifeblood of communities and citizens across the Nation and USBR is
responsible for leading Federal efforts in the West toward sustainable water
resources. The WaterSMART Program and its component financial assistance
entities provide the framework used by DOI to pursue a sustainable water future
for the Nation. Overall, USBR manages grants well under WEEG, Title XVI, and
WCFSP. We believe that our six recommendations will further improve and
strengthen USBR’s management of the WaterSMART Program.

Recommendations Summary
USBR responded to our draft on September 24, 2014. According to its response,
USBR concurred with our recommendations. Based on USBR’s response, we
consider recommendation 5 resolved and implemented, and recommendations 1,
2, 3, 4, and 6 resolved but not implemented (see Appendix 5). We are referring
the recommendations to the Assistant Secretary for Policy, Management and
Budget for tracking.

We recommend that:

   1. USBR develop and implement policy and procedures to differentiate
      between WEEG and WCFSP grants awarded in support of water-use
      efficiency activities.

       USBR Response: USBR concurred with the recommendation. USBR will
       review existing Reclamation Manual Directives & Standards for USBR’s
       water conservation activities and revise as necessary. The USBR Director,
       Policy and Administration will implement the recommendation by June
       30, 2016.

   2. USBR establish and implement definitive guidance on WCFSP funding
      limitations, including a process for increasing funding through grant
      modifications.

       USBR Response: USBR concurred with the recommendation. USBR will
       review existing Reclamation Manual Directives & Standards for USBR’s
       water conservation activities and revise as necessary. The USBR Director,
       Policy and Administration will implement the recommendation by June
       30, 2016.

   3. USBR increase documentation regarding the analysis conducted for acre-
      feet of water conserved prior to awarding grants and ensure that the
      resulting determination is adequately documented in both the selection
      files and in the individual financial assistance agreements.


                                                                              11
   USBR Response: USBR concurred with the recommendation. USBR will
   issue guidance to ensure that all documentation in the selection files and in
   the individual financial assistance agreements is complete, including
   information regarding the analysis conducted in determining acre-feet of
   water conserved, where appropriate. The USBR Director, Management
   Service Office will implement the recommendation by December 31,
   2015.

4. USBR ensure WCFSP grant final performance reports capture the project
   objectives, goals, and accomplishments and, if applicable, require a
   discussion of the amount of water conserved.

   USBR Response: USBR concurred with the recommendation. USBR will
   review existing Reclamation Manual Directives & Standards for USBR’s
   water conservation activities and revise as necessary. The USBR Director,
   Policy and Administration will implement the recommendation by June
   30, 2016.

5. USBR’s Mid Pacific Regional Director resolve the ineligible costs of
   $18,405 for the WCFSP grant awarded to the City of Roseville.

   USBR Response: USBR concurred with the recommendation. USBR
   worked with the City of Roseville and discovered the City requested
   $51,245.57 from USBR when the request should have been in the amount
   of $42,043.22. The City submitted a reimbursement to USBR for
   $9,292.35 to appropriately account for the 50 percent cost-share
   requirement.

6. USBR expand the definition of grant activities conducted under the CFDA
   number for CALFED to include all CALFED water use and efficiency
   grant activities.

   USBR Response: USBR concurred with the recommendation. USBR
   revised the CFDA for the CALFED to include awards made in support of
   that program under the statutory authority of Public Law 111-11, Section
   9504(a). This update was provided to the Department’s Office of
   Acquisition and Property Management on March 31, 2014. USBR
   anticipates that the update will be published on the www.CFDA.gov
   website by September 30, 2014. The USBR Director, Management
   Services Office will implement the recommendation by December 31,
   2014.




                                                                             12
Appendix 1: Scope and Methodology
Scope
We reviewed the U.S. Department of the Interior’s (DOI) Bureau of
Reclamation’s (USBR) management of three financial assistance programs from
fiscal years 2011 through 2013: Water and Energy Efficiency Grants (WEEG);
Title XVI Water Reclamation and Reuse Program (Title XVI); and Water
Conservation Field Service Program (WCFSP) under the WaterSMART (Sustain
and Manage America’s Resources for Tomorrow) program.

The WaterSMART Program combines multiple existing programs with new
initiatives. During our survey period, we focused on four of WaterSMART’s
largest programs: WEEG; Title XVI; Landscape Conservation Cooperatives
(LCC); and Cooperative Watershed Management Program (CWMP). Since LCC
and CWMP grants do not have projects counted toward DOI’s goal for water
conservation, we eliminated these two programs from our scope and added
WCFSP to focus on the three WaterSMART programs that contribute to DOI’s
goal.

Methodology
We conducted our evaluation in accordance with the Quality Standards for
Inspection and Evaluation as put forth by the Council of the Inspectors General on
Integrity and Efficiency. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

We performed our fieldwork from January through April 2014 and evaluated the
WaterSMART Program to assess USBR’s management of the Program and the
accomplishments made toward reaching Program goals.

To accomplish our objective, we—

   •   reviewed the laws, regulations, policies, and budget justifications as they
       relate to the WaterSMART Program;
   •   reviewed “WaterSMART: A Three-Year Progress Report” and “Water
       2025: Preventing Crises and Conflict in the West,” both issued by USBR
       in 2012 and 2005, respectively;
   •   selected and reviewed a judgmental sample of 76 WaterSMART financial
       assistance files from a population of approximately 383 files from fiscal
       years 2011 through 2013;
   •   reviewed funding opportunity announcements for all three financial
       assistance programs;
   •   analyzed the output of program data from the Information Monitoring and
       Tracking System (IMATS); and
   •   interviewed USBR officials with WaterSMART Program responsibilities,
       including grant officers; grant officer technical representatives; application


                                                                                  13
       review committee members; WEEG, Title XVI, and WCFSP coordinators;
       Government Performance and Results Act coordinator; regional audit
       liaisons, and an internal review official.

We also interviewed or contacted USBR personnel and reviewed WaterSMART
Program financial assistance agreement files at several USBR office locations:

   •   Washington Office in Washington, DC.
   •   Policy and Administration at the Denver Federal Center in Denver, CO.
   •   Lower Colorado Regional Office in Boulder City, NV.
   •   Upper Colorado Regional Office in Salt Lake City, UT.
   •   Mid-Pacific Regional Office in Sacramento, CA.




                                                                               14
Appendix 2: Prior Report Coverage
The U.S. Department of the Interior (DOI) Office of Inspector General (OIG)
issued two prior reports that we found to be relevant to our current evaluation.
In September 2011, OIG issued “U.S. Department of the Interior Program Startup
Evaluation,” (Report No. ER-EV-MOA-0001-2010). In this report, we reported
four different models of program planning used by five bureaus within DOI. One
of the performance-based models reviewed was used by USBR for the
WaterSMART Program. The report concluded that USBR’s performance-based
program planning model focused on the ability of grantees to support the
objectives of the Program and consisted of an integrated set of planning,
reviewing, and monitoring procedures that cascade down through the
organization, providing a link between the grantee performance and overall
strategy of the Bureau. The report offered no recommendations and was intended
to provide a resource for DOI and its bureaus to use when planning new programs
or modifying existing programs.

In November 2011, OIG issued “U.S. Department of the Interior Program Startup
Inspection: Bureau of Reclamation WaterSMART Grant Program,” (Report No.
ER-IS-BOR-0012-2011). In this report, we reported the WaterSMART Program
did not have policies and procedures in place to manage the Program in such a
way that would ensure long-term continuity. The report made one
recommendation to the USBR Commissioner to develop and implement clear
internal programmatic policies and procedures that focus on managing the
Program to ensure continuity if personnel changes occur.




                                                                              15
Appendix 3: Schedule of Potential
Monetary Impact
                            City of
               USBR Claimed                       Ineligible
Grant Number                Roseville     Rec #
               Costs                              Costs
                            Claimed Costs

R11AP20092     $51,245      $32,841       5       $18,405




                                                               16
Appendix 4: U.S. Bureau of
Reclamation Response
The U.S. Bureau of Reclamation response to our draft report follows on page 18.




                                                                              17
                     United States Department of the Interior
                                     BUREAU OF RECLAMATION
                                           Washington, DC 20240



IN ~~':.~4~00:

   ADM-8.00



                                          MEMORANDUM

   To:       Office of Inspector General
              Attn: Assistant Inspector General for Audits, Inspections, and Evaluations

   Through: Anne J. Castle      ~ f1 ~                              SEP 2 lt 2014
            Assistant S cretary - waWand Science

             Lowell D. Pimley          /)     J · --' /1          /')        J-- SEP 17 2014
             Acting Commissioner      ~/                f     0~
   Subject: The Bureau of Reclamation's Response to the Office oflnspector General (OIG) Draft
            Report, Bureau of Reclamation's Sustainable Water Management Programs and
            Activities, Report No. WR-EV -BOR-0026-2013

   The OIG in its August 14, 2014, draft report, Bureau of Reclamation's Sustainable Water
   Management Programs and Activities, requested that Reclamation inform the OIG of the
   planned course of action to address and implement the recommendations in the subject report.
   The requested information is attached.

   If you have any questions or require additional information, please contact Elizabeth
   Cordova-Harrison, Director, Management Services Office, at 303-445-2783.

   Attachment




                                                                                                  18
                                                                                         Attachment

                         The Bureau of Reclamation's Response to the
                   Office of Inspector General (OIG) Draft Evaluation Report
        Bureau of Reclamation's Sustainable Water Management Programs and Activities
                              Report No. WR-EV-BOR-0026-2013

                                            August 2014

General Comments: In multiple areas of the introductory sections of the report, including the
transmittal memorandum (second paragraph) and the third paragraph of page 1 under "Results in
Brief," the draft report claims that, "[United States Bureau of Reclamation] USBR could
improve WaterSMART to ensure transparency and fairness in its financial assistance programs"
(emphasis added). The implication that the "fairness" ofthese programs is currently
compromised appears as well within the third paragraph of page 6 under "Overlap Between
Water and Energy Efficiency Grants (WEEG) and Water Conservation Field Service Program
(WCFSP) Grants." Reclamation believes it would be more accurate to characterize these
recommendations as intended to increase the effectiveness of both WaterSMART Grants
(WEEG projects) and the WCFSP and to ensure that the programs have distinct parameters to
meet distinct goals. We believe that the focus on "fairness" may lead to confusion; both
programs are competitive, with Funding Opportunity Announcements (FOAs) posted for full
public disclosure on www.Grants.gov, a well-documented and impartial review and evaluation of
proposals against the evaluation criteria established in the FOA, and a documented selection
process where decisions did not deviate from the recommendations established by the
Application Review Committees. Please note that Reclamation does not disagree with the
recommendation itself, especially as it relates to consistency and differentiation between the
WEEG and WCFSP programs.

In addition, the draft report notes that WCFSP and WEEG grants were awarded "for the same
water use efficiency activities, creating an overlap between two grant programs and creating an
appearance that grantees received funding from different programs to complete the same or
similar tasks." (See page 1, first bullet.) The draft report also states that these awards created an
appearance of "double dipping to obtain funds from different programs to complete similar
work" (See page 6, second paragraph.) Reclamation does not disagree with the recommendation
to implement policy to differentiate between these activities. However, we believe that the draft
report as written (use of "double dipping" and "same") may lead to the mistaken impression that
Reclamation has funded the "same" project twice. In fact, as other parts of the report explain,
the evaluation found instances in which WCFSP and WEEG grants provided funding for
different phases of a larger project. We suggest revising the draft report to clarify that point.

Response to OIG Recommendations

Recommendation 1: USBR develop and implement policy and procedures to differentiate between
WEEG and WCFSP grants awarded in support of water-use efficiency activities.




                                                                                                  19
                                                                                                     2


       Reclamation's Response: Concur. Reclamation will review existing Reclamation
       Manual (RM) Directives & Standards (D&S) for Reclamation's water conservation
       activities and revise as necessary. Revisions will first be included as part of a temporary
       RM D&S. A temporary RM D&S allows for the prompt release of these policies and
       procedures while Reclamation completes required steps to gather and address external
       comments. This approach allows for feedback based upon actual implementation of the
       requirements contained in the RM D&S. A temporary RM D&S has the full force of a
       permanent RM D&S and will become permanent within one year of issuance with or
       without modifications based upon comments received.

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

       Target Implementation Date: The target implementation date for issuing the temporary
       RM D&S is June 30,2016.

Recommendation 2: USBR establish and implement definitive guidance on WCFSP funding
limitations, including a process for increasing funding through grant modifications.

       Reclamation's Response: Concur. Reclamation will review existing RM D&S for
       Reclamation's water conservation activities and revise as necessary. Revisions will first
       be included as part of a temporary RM D&S. A temporary RM D&S allows for the
       prompt release of these policies and procedures while Reclamation completes required
       steps to gather and address external comments. This approach allows for feedback based
       upon actual implementation of the requirements contained in the RM D&S. A temporary
       RM D&S has the full force of a permanent RM D&S and will become permanent within
       one year of issuance with or without modifications based upon comments received.

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

       Target Implementation Date: The target implementation date for issuing the temporary
       RM D&S is June 30,2016.

Recommendation 3: USBR increase documentation regarding the analysis conducted for acre-feet
of water conserved prior to awarding grants and ensure that the resulting determination is adequately
documented in both the selection files and in the individual financial assistance agreements.

       Reclamation's Response: Concur. Reclamation will issue guidance to ensure that all
       documentation in the selection files and in the individual financial assistance agreements
       is complete, including information regarding the analysis conducted in determining acre-
       feet of water conserved, where appropriate.

       Responsible Official: Elizabeth Cordova-Harrison, Director, Management Services
       Office

       Target Implementation Date: December 31, 2015




                                                                                                     20
                                                                                                    3

Recommendation 4: USBR ensure WCFSP grant final performance reports capture the project
objectives, goals, and accomplishments and, if applicable, require a discussion of the amount of
water conserved.

       Reclamation's Response: Concur. Reclamation will review existing RM D&S for
       Reclamation's water conservation activities and revise as necessary. Revisions will first
       be included as part of a temporary RM D&S. A temporary RM D&S allows for the
       prompt release of these policies and procedures while Reclamation completes required
       steps to gather and address external comments. This approach allows for feedback based
       upon actual implementation of the requirements contained in the RM D&S. A temporary
       RM D&S has the full force of a permanent RM D&S and will become permanent within
       one year of issuance with or without modifications based upon comments received.

       Responsible Official: Roseann Gonzales, Director, Policy and Administration

       Target Implementation Date: The target implementation date for issuing the temporary
       RM D&S is June 30, 2016.

Recommendation 5: USBR's Mid-Pacific Regional Director resolve the ineligible costs of
$18,405 for the WCFSP grant awarded to the City of Roseville.

       Reclamation's Response: Concur. WaterSMART grant with the City of Roseville (City)
       ended on December 31, 2012. During the grant closeout process, Reclamation identified
       that the City had not fulfilled its cost share requirements and that its final Federal
       Financial Reports and Progress Reports were incorrect. Reclamation has worked with the
       City to be reimbursed the ineligible costs in July 2014.

       Responsible Official: David Murillo, Director, Mid-Pacific Region

       Target Implementation Date: Reclamation's Mid-Region implemented and completed
       the OIG's recommendation in July 2014.

Recommendation 6: USBR expand the definition of grant activities conducted under [Catalog of
Financial Domestic Assistance] CFDA number for [California Water Security and
Environmental Enhancement program] CALFED to include all CALFED water use and
efficiency grant activities.

       Reclamation's Response: Concur. Reclamation revised the CFDA for the CALFED to
       include awards made in support of that program under the statutory authority of Public
       Law 111-11, Section 9504(a). This update was provided to the Department's Office of
       Acquisition and Property Management on March 31, 2014. It is anticipated that the
       update will be published on the www.CFDA.gov website by September 30, 2014.

       Responsible Official: Elizabeth Cordova-Harrison, Director, Management Services
       Office

       Target Implementation Date: December 31, 2014



                                                                                                   21
Appendix 5: Status of
Recommendations
    Recommendations           Status       Action Required

                                         No further response to
                                         the Office of Inspector
                                         General is required. We
                                         are referring the
                      Resolved but not
1, 2, 3, 4, & 6                          recommendations to
                      implemented.
                                         the Assistant Secretary
                                         for Policy, Management
                                         and Budget for tracking.


                                         No further response to
                      Resolved and
5                                        the Office of Inspector
                      implemented.
                                         General is required.




                                                                    22
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
